<html>
<title> - THE TAXPAYER EXPERIENCE WITH THE INTERNAL REVENUE SERVICE</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                    THE TAXPAYER EXPERIENCE WITH THE
                        INTERNAL REVENUE SERVICE

=======================================================================

                                 HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON OVERSIGHT

                                 OF THE

                      COMMITTEE ON WAYS AND MEANS
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 13, 2017

                               __________

                          Serial No. 115-OS09

                               __________

         Printed for the use of the Committee on Ways and Means
         
         
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                               
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
33-658                  WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------      

           
         
         


                      COMMITTEE ON WAYS AND MEANS

                      KEVIN BRADY, Texas, Chairman

SAM JOHNSON, Texas                   RICHARD E. NEAL, Massachusetts
DEVIN NUNES, California              SANDER M. LEVIN, Michigan
PATRICK J. TIBERI, Ohio              JOHN LEWIS, Georgia
DAVID G. REICHERT, Washington        LLOYD DOGGETT, Texas
PETER J. ROSKAM, Illinois            MIKE THOMPSON, California
VERN BUCHANAN, Florida               JOHN B. LARSON, Connecticut
ADRIAN SMITH, Nebraska               EARL BLUMENAUER, Oregon
LYNN JENKINS, Kansas                 RON KIND, Wisconsin
ERIK PAULSEN, Minnesota              BILL PASCRELL, JR., New Jersey
KENNY MARCHANT, Texas                JOSEPH CROWLEY, New York
DIANE BLACK, Tennessee               DANNY DAVIS, Illinois
TOM REED, New York                   LINDA SANCHEZ, California
MIKE KELLY, Pennsylvania             BRIAN HIGGINS, New York
JIM RENACCI, Ohio                    TERRI SEWELL, Alabama
PAT MEEHAN, Pennsylvania             SUZAN DELBENE, Washington
KRISTI NOEM, South Dakota            JUDY CHU, California
GEORGE HOLDING, North Carolina
JASON SMITH, Missouri
TOM RICE, South Carolina
DAVID SCHWEIKERT, Arizona
JACKIE WALORSKI, Indiana
CARLOS CURBELO, Florida
MIKE BISHOP, Michigan

                     David Stewart, Staff Director

                 Brandon Casey, Minority Chief Counsel

                                 ______

                       SUBCOMMITTEE ON OVERSIGHT

                    VERN BUCHANAN, Florida, Chairman

DAVID SCHWEIKERT, Arizona            JOHN LEWIS, Georgia
JACKIE WALORSKI, Indiana             JOSEPH CROWLEY, New York
CARLOS CURBELO, Florida              SUZAN DELBENE, Washington
MIKE BISHOP, Michigan                EARL BLUMENAUER, Oregon
PAT MEEHAN, Pennsylvania
GEORGE HOLDING, North Carolina


                           C O N T E N T S

                               __________

                                                                   Page

Advisory of December 13, 2017, announcing the hearing............     2

                               WITNESSES

Jennifer MacMillan, Enrolled Agent, Owner, Jennifer MacMillan, 
  EA; Government Relations Chair, National Association of 
  Enrolled Agents................................................     5
Tameka E. Lester, Associate Director, Philip C. Cook Low-Income 
  Taxpayer Clinic, Georgia State University College of Law.......    17
Karina Ron, Director, Center for Financial Stability, United Way 
  of Miami-Dade..................................................    28
Lynnette Lee-Villanueva, Vice President, Tax-Aide, AARP 
  Foundation.....................................................    34

                       SUBMISSIONS FOR THE RECORD

American Institute of Certified Public Accountants (AICPA).......    58
Coalition for Effective and Efficient Tax Administration (CEETA).    65
National Treasury Employees Union (NTEU).........................    70

 
                    THE TAXPAYER EXPERIENCE WITH THE
                        INTERNAL REVENUE SERVICE

                              ----------                              


                      WEDNESDAY, DECEMBER 13, 2017

             U.S. House of Representatives,
                       Committee on Ways and Means,
                                 Subcommittee on Oversight,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:03 a.m., in 
Room 1100, Longworth House Office Building, Hon. Vern Buchanan 
[Chairman of the Subcommittee] presiding.
    [The advisory announcing the hearing follows:]

           ADVISORY FROM THE COMMITTEE ON WAYS AND MEANS

                       SUBCOMMITTEE ON OVERSIGHT

                                                CONTACT: (202) 225-1721
FOR IMMEDIATE RELEASE
Wednesday, December 13, 2017
OS-09

                 Chairman Buchanan Announces Hearing on

                    The Taxpayer Experience with the

                        Internal Revenue Service

    House Ways and Means Oversight Subcommittee Chairman Vern Buchanan 
(R-FL), announced today that the Subcommittee will hold a hearing 
entitled ``The Taxpayer Experience with the Internal Revenue Service.'' 
The hearing will focus on understanding taxpayers' interactions with 
the Internal Revenue Service and soliciting feedback on how to improve 
the relationship between the agency and taxpayers. The hearing will 
take place on Wednesday, December 13, 2017, in room 1100 of the 
Longworth House Office Building, beginning at 10:00 a.m.
      
    In view of the limited time to hear witnesses, oral testimony at 
this hearing will be from invited witnesses only. However, any 
individual or organization may submit a written statement for 
consideration by the Committee and for inclusion in the printed record 
of the hearing.
      

DETAILS FOR SUBMISSION OF WRITTEN COMMENTS:

      
    Please Note: Any person(s) and/or organization(s) wishing to submit 
written comments for the hearing record must follow the appropriate 
link on the hearing page of the Committee website and complete the 
informational forms. From the Committee homepage, http://
waysandmeans.house.gov, select ``Hearings.'' Select the hearing for 
which you would like to make a submission, and click on the link 
entitled, ``Click here to provide a submission for the record.'' Once 
you have followed the online instructions, submit all requested 
information. ATTACH your submission as a Word document, in compliance 
with the formatting requirements listed below, by the close of business 
on Wednesday, December 27, 2017. For questions, or if you encounter 
technical problems, please call (202) 225-3625.
      

FORMATTING REQUIREMENTS:

      
    The Committee relies on electronic submissions for printing the 
official hearing record. As always, submissions will be included in the 
record according to the discretion of the Committee. The Committee will 
not alter the content of your submission, but we reserve the right to 
format it according to our guidelines. Any submission provided to the 
Committee by a witness, any materials submitted for the printed record, 
and any written comments in response to a request for written comments 
must conform to the guidelines listed below. Any submission not in 
compliance with these guidelines will not be printed, but will be 
maintained in the Committee files for review and use by the Committee.
      
    All submissions and supplementary materials must be submitted in a 
single document via email, provided in Word format and must not exceed 
a total of 10 pages. Witnesses and submitters are advised that the 
Committee relies on electronic submissions for printing the official 
hearing record.
      
    All submissions must include a list of all clients, persons and/or 
organizations on whose behalf the witness appears. The name, company, 
address, telephone, and fax numbers of each witness must be included in 
the body of the email. Please exclude any personal identifiable 
information in the attached submission.
      
    Failure to follow the formatting requirements may result in the 
exclusion of a submission. All submissions for the record are final.

    The Committee seeks to make its facilities accessible to persons 
with disabilities. If you are in need of special accommodations, please 
call 202-225-1721 or 202-226-3411 TDD/TTY in advance of the event (four 
business days notice is requested). Questions with regard to special 
accommodation needs in general (including availability of Committee 
materials in alternative formats) may be directed to the Committee as 
noted above.
      
    Note: All Committee advisories and news releases are available at
    http://www.waysandmeans.house.gov/

                                 

    Chairman BUCHANAN. The Subcommittee will come to order.
    Welcome to the Ways and Means Oversight Subcommittee 
hearing on ``The Taxpayer Experience with the Internal Revenue 
Service.'' Today's hearing is an important part of our efforts 
to reform the Internal Revenue Service.
    I have said before, this bipartisan effort is not an 
attempt to discredit the IRS or cast the agency in a bad light. 
I understand there are many public servants that are doing an 
outstanding job and work at the IRS.
    I have also made it clear I believe there is always room 
for improvement--continuous improvement. That was my model in 
business for 30 years before I came here. It should be a 
priority for the IRS. And I am committed to working with 
Ranking Member Lewis, my colleagues in Congress, and the agency 
to achieve that.
    For some perspective, in fiscal year 2016 the IRS collected 
more than $3.3 trillion in taxes. That is money generated by 
millions of hard-working Americans. In order to collect those 
funds, the agency processed more than 244 million tax returns 
and supplemental documents. That number includes individual and 
business tax returns.
    Of the 150 million returns filed by individual taxpayers, 
more than half were filed by paid preparers. This means at 
least 50 percent of individual tax filers do not have direct 
contact with the IRS.
    With more and more taxpayers seeking help to comply with 
the complex tax laws, it is critical we hear from those of you 
who directly interact with taxpayers on a regular basis. 
Without this critical input, it is difficult to get a full 
understanding of how taxpayers are being treated.
    Improving the relationship between the IRS and taxpayers 
starts with ensuring that the taxpayer's rights are being 
respected. It is the duty of the IRS Commissioner to ensure 
that employees are familiar with that and act in accordance 
with the Taxpayer Bill of Rights. Key taxpayer rights include 
the right to be informed, the right to quality service, and the 
right to a fair and just tax system.
    The goal of our hearing today is to get a better 
understanding from you of how ordinary taxpayers interact with 
the IRS. Each of the witnesses represents an organization that 
helps thousands of taxpayers in their dealings with the IRS, 
whether by routine tax filing or through resolving tax 
controversy cases. I look forward to your testimony and your 
unique perspective with each of you.
    And now I yield to the distinguished Ranking Member from 
Georgia, Mr. Lewis, for his purpose of an opening statement.
    Mr. LEWIS. Good morning. Mr. Chairman, thank you very much 
for holding this hearing.
    I would like to thank you, each one of you, for being here 
today. I would like to thank our witnesses for being here 
today.
    Before we begin, I would like to take a moment to address 
the Republican tax cut bill. This bill would increase the 
national debt by $2.3 trillion, and it will cause 13 million 
Americans to lose their healthcare coverage. That is not right. 
That is not fair. That is not just. That is wrong.
    All taxpayers expect, demand, and deserve better, much 
better, than legislation which puts politics before the good of 
the people. For the sick, the elderly, and the disabled, this 
bill may mean life or death. For middle-class, working, and 
immigrant families, this bill would mean an increase in taxes. 
For students, this bill would mean it is more difficult to 
realize their dream of a good education.
    In particular, I am concerned about how this bill would 
impact the IRS and taxpayer services. We have not had a single 
hearing on the challenge of implementing this bill. We have not 
had a single hearing on the confusion this bill would create 
during the tax filing season which begins in a few short weeks.
    Since 2010, Congress cut the agency's budget by almost $1 
billion. I have said time and time again that you cannot get 
blood from a turnip and you cannot justify robbing poor Peter 
to pay billionaire Paul. It is clear that the IRS does not have 
enough funding, staff resources, or time to handle these 
significant changes in tax law.
    Throughout the year, this Subcommittee has done good work, 
and I appreciate all of the good work you have done, Mr. 
Chairman, necessary work, the people's work. Mr. Chairman, I 
hope that we can continue to find ways to work together and 
give this agency the tools, staff, and resources it needs to 
serve taxpayers.
    This morning, I look forward to learning more about the 
taxpayers' experience with the agency, the low-income taxpayer 
clinics, and the other IRS partners who provide free tax 
services to low-income and elderly taxpayers. Their insight 
should guide our work to make sure that taxpayers have more 
access to good quality in-person, online, and telephone 
services.
    In closing, I would like to thank each of the witnesses for 
being here today and for the good work you do to serve and 
support taxpayers. I look forward to your testimony.
    Again, Mr. Chairman, thank you for holding this hearing. I 
yield back.
    Chairman BUCHANAN. And thank you, Mr. Lewis.
    Without objection, other Members' opening statements will 
be made part of the record.
    Today's witness panel includes five experts. Jennifer 
MacMillan is an enrolled agent and owner of Jennifer MacMillan, 
EA, testifying on behalf of the National Association of 
Enrolled Agents.
    At this time, I would like to recognize the gentleman from 
Georgia to introduce his witness, the next witness.
    Mr. LEWIS. Well, thank you, Mr. Chairman.
    It is my honor to introduce Ms. Tameka Lester. Ms. Lester 
is the Associate Director of the Philip C. Cook Low-Income 
Taxpayer Clinic at Georgia State University College of Law 
located in my congressional district.
    Thank you, and welcome.
    Chairman BUCHANAN. Thank you, Mr. Lewis.
    Next, I would like to recognize the gentleman from Florida, 
Mr. Curbelo, to introduce the next witness.
    Mr. CURBELO. Thank you very much, Mr. Chairman.
    And I am proud to introduce this morning Ms. Karina Ron, 
Director of the United Way Center for Financial Stability with 
United Way of Miami-Dade, an organization that all throughout 
the country, but especially in our community, makes such a big 
difference for so many people in need.
    So, Ms. Ron, I am very grateful that you are here today, 
and I look forward to hearing the entirety of your testimony. 
But, of course, you know I have a special interest in the VITA 
program, which you all are so active in. So thank you.
    And thank you, Mr. Chairman, for this opportunity.
    Chairman BUCHANAN. And thank you.
    Finally, we have with us Ms. Lee-Villanueva, Vice President 
of the Tax-Aide program operated by the AARP Foundation.
    The Subcommittee has received your written statements. They 
will all be made part of the formal hearing record. You have 5 
minutes to deliver your oral remarks.
    We will start with you, Ms. MacMillan.

    STATEMENT OF JENNIFER MACMILLAN, ENROLLED AGENT, OWNER, 
 JENNIFER MACMILLAN, EA; GOVERNMENT RELATIONS CHAIR, NATIONAL 
                 ASSOCIATION OF ENROLLED AGENTS

    Ms. MACMILLAN. Thank you, Chairman Buchanan and Ranking 
Member Lewis.
    I speak on behalf of the National Association of Enrolled 
Agents, which represents over 55,000 enrolled agents. EAs are 
tax experts licensed by the Treasury. We must pass a rigorous 
Treasury-administered exam and are subject to background checks 
as well as meeting ongoing continuing education and ethics 
requirements.
    The IRS, for better or worse, is the face of the Federal 
Government for most citizens. Increasingly, EAs, who assist 
taxpayers at every level of administrative dealings with the 
IRS, believe taxpayer service has in recent years deteriorated 
to an unacceptable level.
    Our written statement details our concerns with IRS 
taxpayer service. This morning, however, I will focus on three 
issues: the IRS focus on providing assistance on a one-size-
fits-all basis, concerns regarding post-filing assistance, and 
bolstering taxpayer rights.
    IRS provides three taxpayer service channels--face-to-face 
contacts, telephone, and self-help on the IRS.gov website. All 
can be helpful, but each has its limitations.
    IRS serves over 5 million taxpayers annually at their 
Taxpayer Assistance Centers, or TACs. These face-to-face 
resources are vital, particularly for the most vulnerable 
members of our society. Yet, we note they are subject to 
limited availability, both in hours and training, and in 
location.
    These centers are helpful for basic tax questions, but the 
IRS refers taxpayers with more complicated issues to other 
channels or to paid preparers. While the latter may be good for 
enrolled agents, it is not necessarily good for taxpayers, and 
it illustrates the need for Congress to make policy 
determinations about what level of service is acceptable from 
the IRS.
    At the IRS call centers, levels of service have steadily 
declined since 2010, reaching 37 percent 2 years ago. At that 
time, wait times also increased dramatically.
    Last year, with additional resources, IRS significantly 
improved the level of customer service at these call centers. 
Notwithstanding this concrete improvement, it appears that 
additional funding will not be available in the fiscal year 
2018 budget. This will likely result in fewer taxpayers and 
practitioners receiving necessary services.
    Finally, taxpayers are increasingly solving pre-filing 
basic issues by visiting IRS.gov. The IRS website has recently 
been revamped, and we encourage the IRS to continue to work 
with the practitioner community and the public to improve the 
website. While IRS.gov drives down agency costs, not every 
taxpayer is well-equipped to use a self-help version.
    As daunting as filing can be for taxpayers, dealing with 
enforcement matters can quickly become overwhelming. Taxpayers 
have a limited number of choices when they disagree with a 
notice or have a valid explanation the IRS should consider. 
They can try to reach the IRS to resolve the issue, they can 
pay a tax professional to take the matter off of their hands, 
or they can pay an assessment that is more than they truly owe. 
We often see taxpayers give up after spending hours waiting on 
hold or having their calls dropped.
    Campus audits are a prime example of this predicament. 
While correspondence exams increase IRS efficiency, they 
typically increase taxpayer burden as well. Churning out 
computer-generated exams demands that taxpayers have the right 
to contest the proposed actions of the IRS. Communicating with 
a human at the IRS could often resolve these cases quickly and 
efficiently, but the IRS lacks the ability to hire and train 
sufficient personnel for these necessary contacts.
    To increase the quality of taxpayer service at the IRS, 
Congress should consider the following policy and legislative 
changes:
    Provide IRS with additional targeted resources, as detailed 
in our written testimony.
    Create and fund dedicated training.
    Increase the authority and set higher standards for field 
personnel.
    Provide collections personnel the authority and training to 
quickly resolve cases when they deviate slightly from the 
financial standards to facilitate payments from taxpayers.
    And re-evaluate national standards for collection 
information statements.
    We also recommend giving the Taxpayer Advocate Service 
authority to make adjustments and expand dispute resolution 
options to all taxpayers.
    For most taxpayers, filing a return is a daunting 
undertaking, so it is no wonder over half of filers use paid 
preparers. The vast majority of paid preparers are not subject 
to any standards or even background checks.
    While many unenrolled preparers are conscientious and 
knowledgeable, many are not. The IRS cannot require or enforce 
even minimal standards on these individuals, although taxpayers 
expect and deserve to be able to have confidence that the 
person preparing the return is competent to do so.
    Thank you, again, for allowing me to testify today, and I 
look forward to answering any questions you may have.
    [The prepared statement of Ms. MacMillan follows:]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman BUCHANAN. Thank you.
    Ms. Lester, you are recognized.

STATEMENT OF TAMEKA E. LESTER, ESQ., ASSOCIATE DIRECTOR, PHILIP 
 C. COOK LOW-INCOME TAXPAYER CLINIC, GEORGIA STATE UNIVERSITY 
                         COLLEGE OF LAW

    Ms. LESTER. Chairman Buchanan, Ranking Member Lewis, and 
Members of the Subcommittee, thank you for the opportunity to 
testify and discuss IRS reform and the taxpayer experience.
    I want to spend the next few minutes talking about the low-
income taxpayers we see at the Georgia State University Low-
Income Taxpayer Clinic, how they interact with the Internal 
Revenue Service, and what low-income taxpayers need to 
effectively gain access to the Internal Revenue Service.
    Our clients come from all walks of life. They are members 
of different political parties, socioeconomic groups, and have 
different cultural backgrounds. Some have always struggled to 
make ends meet, while others have fallen on hard times after 
losing their job or the result of an injury or sickness.
    The theme, however, is that time and money are finite and 
limited resources. The VITA program provides low- to no-cost 
tax representation services, and refundable credits like the 
earned income tax credit make a tremendous difference for them 
in bridging the poverty gap.
    But what happens when the IRS has questions about their 
return or determines a taxpayer has gotten a refund that they 
are not entitled to? When it is time to work with the IRS, what 
are their options for communicating with the service?
    We must consider how we can better serve and provide 
greater accessibility to our taxpayers who are already 
struggling the most. Taxpayers can engage with the IRS via 
online and mail, by telephone, and at Taxpayer Assistance 
Centers.
    Examining all these channels is important because each 
taxpayer's situation is different. Some of our clients have 
Internet access and smartphones, but some of them don't. Some 
of our clients don't even have phones, and for those who do, 
they may have limited data plans. Taxpayer Assistance Centers 
are not in every city, and the ones that do exist are by 
appointment only.
    I have three recommendations that I believe will provide 
low-income taxpayers with greater accessibility to the IRS and 
allow the IRS to provide greater service for all taxpayers.
    First, our clients are often the subject of audits and 
collection activity. Both processes involve taxpayers sending 
in documentation, such as copies of their children's birth 
certificates, Social Security cards, school records, and their 
own personal information.
    Taxpayers provide this information or documentation 
primarily through mail and fax, which presents several issues 
with security and financial issues. Taxpayers should have the 
ability to send information to the IRS electronically through 
secured portals and accounts.
    Next, when low-income taxpayers get notices from the IRS, 
they need options of talking with a representative over the 
phone or in person, so funding must be increased to hire 
additional representatives. Wait times for phone reps should be 
decreased, each Taxpayer Assistance Center should have more 
than one person available to taxpayers to talk with them in 
person, and there needs to be more of these centers in 
underserved areas.
    The Taxpayer Assistance Centers should begin accepting 
walk-in taxpayers again because taxpayers who do not have 
phones and who have an immediate need should not be turned away 
from these centers simply because they do not have an 
appointment.
    In addition, LITCs are instrumental in helping taxpayers 
navigate the IRS and resolve their issues. While Congress has 
continued to increase the overall funding available to LITC 
programs, the statutory cap of $100,000 for any one 
organization to receive has not been changed since the program 
began in 1998.
    Many organizations, like Georgia State University, receive 
the statutory cap, but have the capacity and interest to serve 
more taxpayers. For the last 26 years our clinic has served the 
taxpayers of Georgia. At any given time, we are working with 
hundreds of taxpayers, but we can do more. Where an 
organization like Georgia State University has experienced 
helping taxpayers and successfully operating a clinic, 
additional funding can help to set additional locations to 
service more taxpayers.
    No one wants to have an issue with the IRS. And, in my 
experience, our clients really do have a desire to resolve 
their issues properly. However, they need our help in order to 
do that.
    By improving online technology, providing more 
representatives for taxpayers to speak with over the telephone 
and in person, and increasing the statutory cap for 
organizations who are operating LITCs, the service can increase 
accessibility of their agency and enhance the overall 
experience for all taxpayers.
    Chairman Buchanan, Ranking Member Lewis, and Members of the 
Subcommittee, this concludes my statement. Thank you for the 
opportunity to share my views, and I welcome your questions.
    [The prepared statement of Ms. Lester follows:]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman BUCHANAN. Thank you.
    Ms. Ron, you are recognized.

    STATEMENT OF KARINA RON, DIRECTOR, CENTER FOR FINANCIAL 
              STABILITY, UNITED WAY OF MIAMI-DADE

    Ms. RON. Good morning, Chairman Buchanan, Ranking Member 
Lewis, and Members of the Committee. Thank you so much for the 
opportunity to be here and to testify today. I will be mainly 
focusing on experiences through the VITA program.
    The United Way focuses on lasting solutions that go beyond 
charity because financially stable people are more likely to 
access quality healthcare, provide a good education for their 
children, and contribute to their local economies.
    A key component of success in building financial stability 
is ensuring that hard-working families secure and keep the tax 
credits they are eligible for through free high-quality tax 
preparation and filing services, particularly via the Volunteer 
Income Tax Assistance program, or VITA, as we know it.
    Volunteer preparers are certified by the IRS and are 
required to maintain the highest standards of ethical conduct 
and service. This certification and a very, very disciplined 
approach in service delivery have resulted in accuracy ratings 
among the highest of all tax returns filed. According to a 2016 
report, for example, the VITA program experienced a 94 percent 
accuracy rating for prepared returns, including returns with 
earned-income tax credits.
    VITA is a very successful public-private partnership 
generating a strong return on investment. With a modest Federal 
investment, matched in local communities, VITA sites prepared 
millions of returns, bringing back $1.9 billion to VITA clients 
in communities across the country.
    VITA helps hard-working Americans meet their tax 
obligations while claiming the full amount of any refunds for 
which they are eligible. Often clients qualify for the EITC and 
child tax credit, which are some of our Nation's most effective 
anti-poverty tools. Only those who work are eligible, and in 
2015 these critical pro-work tax credits lifted 9.8 million 
Americans out of poverty, including 5 million children.
    Fundamentally, VITA supports those who cannot afford 
professional tax services and need assistance to accurately 
complete their taxes. Even beyond tax filing, many programs 
leverage the touch point that VITA provides to offer integrated 
service delivery, like counseling and education, and to connect 
clients with programs that foster proper financial stewardship 
and even grow savings.
    The Miami-Dade VITA Coalition, for example, provides access 
to financial capability services that range from financial 
education and one-on-one financial coaching to incentivized 
savings programs and even onsite bank account openings in 
partnership with its local banking access coalition, known as 
Bank On Miami.
    Since its creation, the VITA program has been an incredibly 
successful public-private partnership throughout the country. 
The resources that the IRS provides through this matching grant 
are only a portion of what organizations use to operate VITA 
sites.
    While the tax returns are prepared by volunteers, 
sponsoring community organizations contribute significant 
resources to recruit and train the volunteers to IRS standards, 
supervise the volunteers to ensure accuracy, provide office 
space and computers for electronic filing, and conduct outreach 
to community members.
    Currently, 380 United Ways fund, operate, or support VITA 
programs, contributing financial resources, personnel, and in-
kind donations. As a network, the United Way invests $17.4 
million in VITA and other filing assistance programs. Millions 
more are invested across the country from other nonprofits and 
community service agencies, though these resources are 
stretched very tight and the reality is that communities often 
lack the resources to meet demand.
    And demand for VITA services only continues to grow. Given 
the significant return on investment and the successful 
partnership, we recommend a boost in funding for this program 
and for the program to be permanently authorized as called for 
in the bipartisan VITA Permanence Act, sponsored by 
Representatives Curbelo and Davis.
    Thank you, once again, for the opportunity. It is a 
pleasure to be here.
    [The prepared statement of Ms. Ron follows:]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman BUCHANAN. Thank you.
    Ms. Lee-Villanueva, you are recognized.

             STATEMENT OF LYNNETTE LEE-VILLANUEVA, 
           VICE PRESIDENT, TAX-AIDE, AARP FOUNDATION

    Ms. LEE-VILLANUEVA. Thank you, Chairman Buchanan and 
Ranking Member Lewis and Members of the Oversight Subcommittee, 
for the invitation to testify today on ``The Taxpayer 
Experience with the Internal Revenue Service.'' I am Lynnette 
Lee-Villanueva, Vice President for AARP Foundation Tax-Aide. We 
appreciate the opportunity to share with you information about 
the program and our service to the American taxpayer.
    AARP Foundation is the Nation's largest volunteer-run tax 
assistance and preparation program administered in conjunction 
with the Internal Revenue Service. It started in 1968 with just 
four volunteers at one site. Tax-Aide relies on volunteers who 
make a difference in their communities by assisting many older, 
lower-income taxpayers who might otherwise miss out on 
important credits and deductions.
    Today, as we approach our 50th anniversary, nearly 35,000 
volunteers in all 50 States and the District of Columbia serve 
in approximately 5,000 Tax-Aide sites from February 1 to mid-
April.
    In 2017, the AARP Foundation volunteers helped 2.5 million 
people file their Federal and State tax returns, including 1.5 
million Federal returns. In 2017, Tax-Aide clients, who have an 
average adjusted gross income of around $27,000, received $1.3 
billion in income tax refunds and another $222 million in 
earned-income tax credits.
    Not only is Tax-Aide the producer of about one-half of all 
volunteer prepared returns, but our research also indicates 
that the full Tax-Aide effort ranks fourth on the list of all 
tax-preparing entities, behind only the top three national paid 
preparer firms.
    AARP Foundation Tax-Aide is consistently well regarded by 
taxpayers. According to the 2017 AARP Foundation Tax-Aide 
Satisfaction Survey, 96 percent of respondents stated that they 
were very satisfied with our service. Among those who used Tax-
Aide in previous years, 92 percent said they returned to the 
program because they are satisfied with the quality of service.
    AARP Foundation provides traditional face-to-face 
assistance service in neighborhood locations, such as 
libraries, malls, banks, community centers, and senior centers. 
Local partners donate their space rent free and sometimes help 
with administrative activities and program promotion. We work 
hard to reach out to those who are 50 or older, are homebound 
or disabled, or live in diverse communities in underserved and 
rural and urban areas.
    Tax-Aide sites are staffed by volunteers who serve as 
counselors who are trained to prepare and quality review tax 
returns and client facilitators who greet taxpayers and help 
them with their paperwork. Other volunteers include 
translators, technologists, administrators, and site leaders 
who provide equally important services.
    Volunteers, on average, spend about 6 years in the same 
volunteer position, and many of our volunteers have stayed with 
the program for more than 20 years. AARP Foundation Tax-Aide 
volunteers must train and pass an IRS certification test every 
year in order to serve taxpayers. The program's training 
commitment is about 3 to 5 days of in-person instruction every 
year.
    Tax-Aide seeks to assist taxpayers in ways that go beyond 
in-person assistance. A site locator tool helps taxpayers find 
locations of open Tax-Aide sites, and a call center allows 
individuals to contact us with questions.
    In addition, Tax-Aide provides online tax assistance, a 
web-based tool available year-round where taxpayers can find 
answers to frequently asked questions, as well as submit their 
own questions to receive answers about tax preparation.
    Tax-Aide also provides access to My Free Taxes, an option 
for taxpayers interested in filing their own returns 
electronically. In the off-season, taxpayers can contact Tax-
Aide if they need help with an amended return or have questions 
about letters from the IRS.
    AARP Foundation Tax-Aide continues to strive to provide 
accurate returns and compassionate service to those who need it 
most by helping them preserve as much of their existing income 
as possible.
    We appreciate the Committee's efforts today to better 
understand the taxpayer's filing experience. We stand ready to 
assist and serve as a resource and partner for the Committee to 
improve the tax filing experience for everyone.
    Thank you for the time to testify.
    [The prepared statement of Ms. Lee-Villanueva follows:]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman BUCHANAN. Thank you for your excellent testimony.
    We will now proceed to the questions-and-answers session. 
In keeping with my past precedent, I will hold my questions 
until the end.
    I will now recognize the gentlelady from Indiana, Mrs. 
Walorski.
    Mrs. WALORSKI. Thank you, Mr. Chairman.
    Thank you, ladies, for being here and sharing your 
expertise. I am hoping you have an answer to my question. So 
stay tuned.
    The hearing is called the Taxpayer Experience, so I am 
going to let some of my constituents do the talking on their 
experience with the IRS.
    An 80-year-old farmer in my district received a letter 
saying that even though the IRS had found nothing wrong with 
their taxes, he and his wife had been selected for a random 
statistical audit. Even though the audit only took a few days, 
they had to spend $1,900 defending themselves and waste 
countless hours pulling together documents and traveling to the 
CPA's office to meet with the auditor. All the while, they felt 
the burden was on them to prove their innocence rather than the 
auditor proving guilt.
    Or take another family farm in my district that received an 
audit notification in September of 2012. The auditor sent by 
the IRS had no background in agriculture, didn't know the 
difference between a combine and a tractor. Things only got 
worse when their CPA offended the auditor. After that, they 
were at her mercy.
    She initially said they owed over $600,000. After spending 
over $120,000 and 4 years fighting that determination, the bill 
was reduced to $100,000. They could have kept on fighting but 
didn't want to keep spending more time and more money.
    These are only two stories of countless in my district, and 
I am assuming probably countless in your experience as well. I 
know there is plenty more where that came from.
    It is easy to add up the time and the money spent, but it 
is harder to quantify stress.
    Consider this. That 80-year-old farmer I just told you 
about had a heart condition and was told by doctors to avoid 
stress. How exactly can he do that while sitting across from an 
IRS auditor when he did nothing wrong.
    His family farm? The husband died during the audit, and the 
wife pleaded for a little extra time. She didn't even get a 
response.
    My first question for all of you is if any of you are 
familiar with this kind of statistical audit encountered in the 
first story. If so, what sort of costs are imposed on taxpayers 
subject to one?
    I see, Ms. MacMillan, you are shaking your head. I am 
guessing you have an answer.
    Ms. MACMILLAN. Yes, I have had a few clients go through 
these audits. And I know it is a matter of trying to balance 
fairness with getting the information the IRS needs.
    The National Research Project audits that were started 
maybe 12 years ago are these extremely extensive audits, and 
they use that information to develop better audit technique 
selection, or selection technique, for future audits.
    So I have been through a few of them and they are grueling. 
I don't know that the IRS can get that data elsewhere. But, 
yes, it is extremely expensive to go through one of those, and 
they often result in no change. But they do go through 
horrendous amounts of documentation, asking everything from, 
what about that piece of property you owned in Colorado? And 
they are like, we sold that 24 years ago.
    So they have gone to their third party or their outside 
sources to figure out what they should be looking at, but then 
the data is all over the place. It could be refined.
    Mrs. WALORSKI. I appreciate it.
    Ms. Lester, do you have some input?
    Ms. LESTER. Absolutely. We see this a lot, even with low-
income taxpayers having to go through audits. The way we like 
to describe it to taxpayers is, when you fill out a tax return, 
you are on the honor system, unfortunately. And so when the IRS 
comes back, they want documentation to support the things that 
you have claimed on the return.
    And so that is why it is so important to encourage 
taxpayers to collect documentation as they go along and to 
retain that documentation for an extended period of time just 
in case they are subject to an audit in later years.
    We think that is why the work we do in the Low-Income 
Taxpayer Clinic is important because we are a training ground 
for students, law students, business students, accountants. So 
not only are we providing a valuable service to low-income 
taxpayers, but we are training students who will later be able 
to use their skills to provide affordable services for 
taxpayers who can actually afford to pay but don't want to pay 
astronomical fees in order to gain representation.
    Mrs. WALORSKI. I appreciate it.
    Do any of you have suggestions or recommendations based 
upon everything that you have seen on how to speed up this 
process, other than just educating the taxpayer to keep their 
documents? Is there anything else that you see in 
troubleshooting this that would actually speed up the process?
    Ms. LESTER. Yeah, I can add to that. One of the 
recommendations that we have made is to improve the ability for 
taxpayers to correspond with the IRS in an online fashion.
    Because right now what happens is taxpayers are pulling 
together all this documentation. Then they are having to mail 
it to the IRS. Then it has to be routed to the correct area. 
And so that leaves a lot of chance for things to happen with 
documentation, for it to be misrouted, for it to be lost.
    And so we think that with improved online capabilities, 
taxpayers can send the information directly to the Service and 
that can help speed up the process.
    Mrs. WALORSKI. Great. I appreciate it. Thank you, all of 
you, for your expertise.
    Mr. Chairman, I yield back.
    Chairman BUCHANAN. Thank you.
    I now recognize the gentleman from Georgia, Ranking Member 
Lewis.
    Mr. LEWIS. Thank you very much, Mr. Chairman.
    Mr. Chairman, you know, it is quite unusual. I have been on 
this Committee and the Subcommittee for some time. But I think 
this is my first time seeing an all-women panel. And I guess 
you can say that is major progress.
    Chairman BUCHANAN. It is the future.
    Mr. LEWIS. It is the future. I think you are right. I agree 
with you, Mr. Chairman.
    I have been saying to some that I think women are coming 
into their own, and I think the days and years to come will be 
the days and years of women. So thank you.
    Ms. Lester, thank you again for being here. You know, when 
writing tax laws too fast and sometimes trying to implement 
laws you make mistakes and there is confusion for taxpayers and 
the IRS.
    We have this new unbelievable tax legislation. Do you have 
anything, or do any of you have anything to say, of what could 
happen, or might not happen, or what time should you get the 
information to inform? Any of you could respond.
    Ms. Lester, do you want to go first?
    Ms. LESTER. Can you repeat your question?
    Ms. MACMILLAN. Could you repeat the question? I am sorry.
    Mr. LEWIS. You know we have a big tax bill?
    Ms. MACMILLAN. Yes, I am aware of that.
    Mr. LEWIS. Right? You have been reading about it?
    Ms. MACMILLAN. Right. Yes.
    Ms. LESTER. Yes.
    Mr. LEWIS. Tax reform is coming down the pipe. So are you 
concerned that there will be some confusion on the part of the 
IRS or the taxpayers that you serve?
    Ms. MACMILLAN. I don't know that I am confused about the 
IRS. There will be costs of the IRS to implement major changes 
to the Tax Code. That is clear. I don't know if I can address 
anything else about it.
    I can tell you that middle-class taxpayers on the West 
Coast are at a different income level than middle-class 
taxpayers in the Midwest. So there is going to be a 
discrepancy.
    Mr. LEWIS. There are certain things that affect the 
taxpayers on the West Coast that may not affect those in the 
Southeast?
    Ms. MACMILLAN. Well, obviously, on both coasts, the higher 
income--someone in the middle class on the West Coast would 
look like they were a wealthy person if they lived in the 
Midwest. So I am unsure of how it is going to shake out. But 
the explanation that this helps middle-class taxpayers may not 
help many of my clients.
    Mr. LEWIS. Ms. Lester, do you want to respond?
    Ms. LESTER. Sure. I have looked at some of the details of 
the tax bill, and one of the things that I know will probably 
concern low-income taxpayers is just understanding the 
differences and understanding the changes.
    It is already very difficult for taxpayers to understand 
their rights and responsibilities under the Internal Revenue 
Code, and it seems like, once they kind of begin to understand 
that, the laws change.
    And so some of the things that we are looking at that we 
think will affect them is the exemption amount going away for 
low-income taxpayers that have multiple children. This actually 
decreases their taxable income. And so with that going away, 
their taxable income could possibly increase. Although the 
standard deduction is increasing, that could still have an 
effect on them.
    But there are some things that could be helpful, such as 
the child tax credit being increased. So we see there being 
some benefits and also some disadvantages that would affect our 
taxpayers.
    Mr. LEWIS. Thank you.
    Ms. RON. If I could add, this is definitely not my area of 
expertise, but I would say that from the perspective of the 
population that we serve, there are definitely concerns with 
the tax reform coming up. Definitely, the United Way, I think, 
would be happy to follow up with more specifics on that. But I 
think, in general, there are concerns, particularly perhaps 
around impact on charitable giving.
    Mr. LEWIS. Thank you.
    Yes, ma'am.
    Ms. LEE-VILLANUEVA. I would just like to add that for the 
AARP Tax-Aide program, our commitment would be to make sure 
that our volunteers are up to speed on the current tax law and 
make sure that they are properly trained in order to serve our 
clients.
    Our clients that we see, the taxpayers with the lower 
income, and many of them in the older population, would still 
need assistance to be able to prepare their returns, and we 
would be there committed to provide that assistance.
    Mr. LEWIS. My time is running out, but if you could make it 
quick, and I will make it quick.
    What is your number one recommendation for Congress in 
terms of improving taxpayer service in your community?
    Ms. MACMILLAN. I think overall the lack of funding has been 
the biggest problem, and we encourage Congress to look to 
funding them better.
    Mr. LEWIS. Thank you.
    Ms. LESTER. I would have to agree. I think just making sure 
that taxpayers--I know there has been a big push to improve the 
online capabilities, and we think that is great. But just 
making sure that taxpayers have the ability to talk with actual 
representatives via phone and also at Taxpayer Assistance 
Centers is critical.
    Mr. LEWIS. Thank you.
    Ms. RON. I would also say that funding for programs that 
are so comprehensive, such as VITA, would be very important, 
especially in diverse communities. And to add to that, I would 
say also perhaps some assistance with data collection and 
reporting that might inform best practices on the ground.
    Mr. LEWIS. Thank you.
    Ms. LEE-VILLANUEVA. I would just say for the taxpayers that 
we see, we turn away taxpayers every year. So even though we 
serve 2.5 million, we still could serve many more. So expanding 
the services of the volunteer programs I think would be ideal 
in providing service, especially to the lower-income 
population.
    Mr. LEWIS. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman BUCHANAN. Thank you, Mr. Lewis.
    I now recognize the gentleman from Florida, Mr. Curbelo.
    Mr. CURBELO. Mr. Chairman, thank you for holding this 
hearing on such an important subject and allowing us to learn 
directly from those who interact the most with the IRS.
    One topic being discussed this morning that I am 
particularly proud to support is the Volunteer Income Tax 
Assistance program. VITA, or VITA as it is called in Miami 
sometimes, partners with the Federal Government and local 
community to provide tax preparation services for individuals 
with annual incomes below $54,000 and for those with limited 
proficiency in English.
    The VITA preparation services are of the highest quality, 
with an accuracy rating of 94 percent, even including returns 
claiming the complicated earned income tax credit. The 
certified preparers in the VITA program help traditionally 
underserved populations navigate the obstacles associated with 
filing a tax return and protect them from fraudulent preparers.
    These are some of the most vulnerable people in our 
communities, Mr. Chairman. And these are people who want to 
comply, who want to follow the law, who want to do the right 
thing, which is why I have become such a strong advocate for 
this program.
    I want to thank your Committee staff, Mr. Chairman, for the 
great work they are doing on this issue and others. And I am so 
pleased that H.R. 2901, the VITA Permanency Act I introduced 
with Representative Davis, has garnered the support of 38 
bipartisan cosponsors, including 13 Members of this Committee.
    It is great that the Senate has included this language in 
their tax reform package. And I will continue to lead the 
charge to maintain full funding with the Appropriations 
Committee as we work toward a spending resolution for fiscal 
year 2018.
    I want to ask, Ms. Ron, as the IRS's Taxpayer Assistance 
Centers offer less and less face-to-face help to people, are 
you seeing an increase in demand for VITA services?
    Ms. RON. Definitely. And I would say in Miami-Dade County, 
for example, we estimate that we are only serving 1 percent of 
the folks that are eligible for this service. So there is 
definitely a lot of opportunity and a lot of demand there.
    We work very closely with our local SPEC offices and IRS 
partners and there is a great trust there. And we definitely 
see a lot of increase out of need, but also, I think, 
recognition of the quality of services that we provide, 
particularly around amendments and other kinds of difficult 
situations.
    Mr. CURBELO. How is your interaction with the IRS? Are you 
getting referrals from the agency?
    Ms. RON. Yes, definitely, and there has been an increase, I 
would say, at least for the past 3 years.
    Mr. CURBELO. Okay. I also want to ask you, in your 
testimony you mentioned the vibrant entrepreneurial economy in 
Miami-Dade County, which I am so familiar with and which makes 
me so proud to come from such a diverse, dynamic, and special 
part of the world.
    Can you elaborate on any microbusiness trends that you are 
seeing? Are you seeing an increase in individuals with 1099s or 
miscellaneous income from things like Uber driving, Thumbtack, 
or other tech-related commerce?
    Ms. RON. Yes, we definitely are. I think, also, in part in 
response to the economy and especially in a place where you 
have experiences like natural disasters, Irma recently, a lot 
of people take up self-employment opportunities in order to 
meet their financial needs that they are already struggling 
with.
    So there is definitely an increased need for that. And 
because it is such a diverse community, a lot of people are not 
perhaps as well-versed with our formal financial structures and 
systems. And so they need that one-on-one support that programs 
like VITA provide.
    Mr. CURBELO. Thank you.
    Thank you, Mr. Chairman.
    And I am grateful to you, Ms. Ron, and to all of the 
individuals who have joined us this morning.
    Thank you very much. I yield back.
    Chairman BUCHANAN. Thank you.
    I now recognize the gentlelady from Washington, Ms. 
DelBene.
    Ms. DELBENE. Thank you, Mr. Chairman.
    And I just want to say thank you to all of you for being 
here with us today.
    I represent a big district in Washington State, and we have 
many areas, rural areas, where access to reliable Internet 
access is challenging, and sometimes there is no Internet 
access whatsoever.
    So when we look at rural communities and rural communities 
that may not have assistance nearby, I wondered--and you 
mentioned this, Ms. MacMillan--I wondered if you could talk a 
bit about what the experience is like for folks who don't have 
electronic access, reliable electronic access, and who live in 
rural areas where there may not be assistance close by. What is 
their experience like?
    Ms. MACMILLAN. Yeah. That is one of those major limitations 
of IRS.gov, they may not have Internet access, or it just may 
not be suitable for what they need to do or what their needs 
are.
    Taxpayer Assistance Centers have been closed more and more 
recently, and the level of information that they can give and 
the different circumstances for which they can help are being 
further and further limited. The staff there has been told they 
may only answer basic tax questions during tax season, and 
outside of tax season they can't answer basic tax law questions 
at all.
    So these people, basically their only option is to either 
get on the telephone or seek out professional help. And like 
the VITA sites, there is just not enough of the Taxpayer 
Assistance Centers to go around anyway.
    So these people are ending up on the phones. And the 
phones, the level of service is pretty much a disaster. And the 
level of calls they can answer and the wait times just are 
unconscionable, and they just don't have the staff to----
    Ms. DELBENE. And if they wanted to go to a Taxpayer 
Assistance Center?
    Ms. MACMILLAN. A Taxpayer Assistance Center might be really 
far away from them, and they need to make an appointment. And I 
think that is probably the biggest issue now, because taxpayers 
are used to being able to drive to their local IRS office, 
which could be 200, 300 miles away, and they get there and they 
are told, ``Oh, we do this by appointment only. You will need 
to get on the Internet and make your appointment.''
    Ms. DELBENE. And if they can't get on the Internet and make 
an appointment?
    Ms. MACMILLAN. I guess there is a call-in number. But 
appointments are being scheduled way out in the future too. 
There are very few exceptions to the walk-in policy of you turn 
them away when they walk into the Center.
    Ms. DELBENE. So for----
    Ms. MACMILLAN. They are out of luck. They are out of luck.
    Ms. DELBENE. You talked about providing resources. What 
else do you think we can do to make sure that----
    Ms. MACMILLAN. Training. A dedicated training unit within 
the IRS would be a big help. The training has gone way downhill 
because of budgetary constraints. So they are not able to hire 
new employees, and they are not able to train employees. So 
they basically are keeping more employees at lower-level 
positions, so they don't have the authority or the education to 
know how to handle more taxpayer problems.
    Ms. DELBENE. Have others had experience with rural 
communities and have feedback?
    Ms. Lester.
    Ms. LESTER. Yeah, absolutely. We service the entire State 
of Georgia. And so the majority of our clients are in the metro 
Atlanta area, but we do offer our services to everyone 
throughout the State. And there are a lot of rural communities 
there where taxpayers want to work with us but they have to 
work with us through snail mail and fax and things like that, 
which can be very challenging.
    As Jennifer said, the Taxpayer Assistance Centers only 
accepting appointments poses a real issue because taxpayers 
have to have access to a phone, have to have access to the 
Internet. And even for taxpayers who have that, some taxpayers 
have immediate needs that could likely be resolved, but because 
they have to make an appointment they aren't able to get the 
assistance they need right then.
    Ms. DELBENE. And they would have to take time off from work 
to actually go.
    Ms. LESTER. Absolutely. And some taxpayers just don't have 
that flexibility.
    Ms. DELBENE. Is there any other feedback?
    Ms. Ron.
    Ms. RON. I would add also that in Miami-Dade County 
transportation is a huge problem, and even in some of our 
neighboring communities, like Monroe County, where there are a 
lot of farm workers. So we definitely encounter this.
    And for us, I would just offer up that there have been some 
strategies that we have used that have been helpful. For 
example, public-private partnerships with banks or other 
partners that actually have mobile units. And so we are able to 
kind of maximize that by going out on specific dates to serve 
the populations on-site.
    And another one I would say is perhaps being more creative 
around virtual tax preparation. That has also been something 
that we have used.
    Ms. DELBENE. Thanks.
    Ms. LEE-VILLANUEVA. Yes. Volunteers serve in the community 
where they live. And in many of our communities they know the 
surrounding areas that are around them. We do require that we 
have at least two volunteers in any community to be able to 
open a site.
    But we are beginning to look at what options are available 
virtually. And there are many volunteer programs around the 
country that have created virtual offerings to those locations 
that have the more rural areas. So we look at those as well.
    Ms. DELBENE. Thank you.
    Mr. Chairman, I yield back.
    Chairman BUCHANAN. Thank you.
    I will now recognize the gentleman from Pennsylvania, Mr. 
Meehan.
    Mr. MEEHAN. Thank you, Mr. Chairman.
    And I thank this very distinguished panel for not only your 
presence here today, but for all the work you do out in the 
community on behalf of many of the taxpayers who are confused 
by the process.
    I will say, I mean, there was a point being made, and I 
think the gentleman from Georgia raised some issues, but one of 
the real objectives of the tax reform bill is simplification. 
We had testimony here just a short while ago that 94 percent of 
the people are expected to be able to file their tax returns on 
that simple card. I think that is going to improve a lot of 
issues to some extent.
    Now, where there are questions, I guess, that is where we 
are going to have to come in and follow up with some of the 
issues that exist. So we need to be able to work in that space 
for sure.
    But we have all had experiences in our own area with the 
frustrations of dealing with the IRS in terms of getting 
responses. I can tell stories much like the rest. I had a 
gentleman who had a $75,000 refund due in tax year 2014. The 
problem was, he calls up the IRS, he talks with a person, 
because it was suggested to him that he was a victim of 
identity theft. And I don't know how frequently you see these 
problems. But he mentioned that he was a victim of identity 
theft.
    They resolved it over the phone. And he said, ``Okay, now I 
have it, I see where you are in the system.'' And he told him 
he would receive his return in the coming weeks. He waited a 
couple of months, still nothing. When he contacted the IRS, 
they said, ``Well, you never sent anything to us.''
    How frequently do you run into circumstances in which there 
is either a lack of accountability or at least a lack of some 
kind of confirmation of meetings?
    And what is the impediment? I understand there are issues 
of identity theft. But what is the impediment, in this age of 
computer-generated documents and things of that nature, to 
having an acceptable use of a PDF or something else that goes 
in, in terms of dealing with them?
    Ms. MacMillan, can you start me on some of that process?
    Ms. MACMILLAN. Well, I can tell you from my experience and 
what I have heard from colleagues is that is another area that 
is not being fully--tax refund holds are one of the big issues 
for identity theft issues when they come up.
    And the other issue is IP PINs, the security PINs that IRS 
can assign to taxpayers who are victims of identity theft. One 
issue that we see is that these are not available to anyone who 
hasn't had their identity stolen except for in a few 
circumstances. There are three States where they can.
    Mr. MEEHAN. How do you know if you have had your identity--
--
    Ms. MACMILLAN. Pardon me?
    Mr. MEEHAN. How do you know if you have had your identity 
stolen?
    Ms. MACMILLAN. Oh, you find out when you file a tax return 
and the IRS sends you a letter that says, ``But you already 
filed,'' and you didn't.
    Mr. MEEHAN. Okay.
    Ms. MACMILLAN. The scammers have--they go by the client 
information, the taxpayer information off the dark web, and 
then they file fraudulent returns in order to claim, you know, 
just fraudulent, made-up refunds. And they are getting more and 
more sophisticated. So the IRS has to have sophisticated 
filters for trying to catch these people.
    So the first issue is a lot of bona fide taxpayers are 
having their refunds frozen. And the other issue is, if you are 
a victim of ID theft, the IRS process for getting an IP PIN is 
kind of burdensome. But also the fact that it is not available 
to all taxpayers, even those that have not had their identity 
stolen, is a problem.
    Mr. MEEHAN. So could we amend that in some way by being 
able to require that? Or what is the reason for not allowing 
that PIN?
    Ms. MACMILLAN. The reason the IRS has stated that they are 
not making that available to all taxpayers is that it is a very 
expensive program because it is done through third-party 
providers.
    And then the identity theft, I think the filters that the 
IRS runs all tax returns through to try to gauge whether or not 
this might be a rogue return, those are getting better, but 
there is still need for improvement, and there needs to be a 
dedicated function at the IRS to help these taxpayers. When 
their refund is frozen they need to have an army of assisters 
on the phone that can help these people get through that 
process of getting their return--their refund to them.
    Mr. MEEHAN. Yeah. We have looked at this issue before, and 
I know the IRS is working very hard in this space. But we are 
seeing that there are still some impediments.
    Ms. MACMILLAN. Right.
    Mr. MEEHAN. Does anybody else have an observation with 
respect to this issue of identity theft and timely response?
    Ms. MACMILLAN. It is getting better. They have recently 
improved their filters. But, unfortunately, I think to some 
extent that is going to continue to be an issue.
    I think they just need to be able to handle these problems 
or handle the resolution more quickly. Right now they send a 
letter to the taxpayer saying, ``This might not be your return. 
Please send us some documentation.'' And it is just a long 
process for these people to get their refunds.
    Mr. MEEHAN. More work needs to be done.
    Thank you, Mr. Chairman. I yield back.
    Chairman BUCHANAN. Thank you.
    I now recognize the gentleman and good friend from Oregon, 
Mr. Blumenauer.
    Mr. BLUMENAUER. Thank you, Mr. Chairman.
    I appreciate having our friends come in to talk about some 
of the important roles that you play trying to complete the 
network of assistance for taxpayers. It is certainly daunting 
for them.
    And having volunteers at AARP actually more extensively 
trained than some people who are doing it for hire raises 
troubling issues in terms of perhaps we shouldn't have a 
system--require certain minimum competence for people who are 
going to charge for it, at least as high as what you do with 
your volunteers. I think that is very important.
    But what I am hearing underlying your testimony is that a 
fundamental problem is that there just are not enough resources 
at the IRS. I am not hearing from you that you find lots of 
people who are lazy and who are malicious.
    Although I will say, from my visits to my local IRS 
employees, they are stressed, they are burdened, they have to 
take shortcuts to try to keep up. I have shared with people on 
this panel, I have watched them burst into tears because they 
can't give the service that they want to give.
    And I think what we need to be doing is a deeper dive on 
what Congress has done, engaged in political malpractice 
because of the antipathy that some people have to the IRS and 
taxation, punishing the taxpayers.
    What we have seen, deliberately starving the budget of the 
IRS that has dropped a billion dollars since my friends in the 
Republican Party got control of the House of Representatives 
and clamped down, a billion dollars less at a time when the 
number of taxpayers increases. It went, what, from 230 million 
to 244 million returns. And those returns are increasingly 
complex because of all the things that Congress passes.
    And while they were doing that, there were more burdens 
placed on the agency. They have to implement a number of 
legislative mandates, the Affordable Care Act, the Foreign 
Account Tax Compliance Act, Achieving a Better Life Experience, 
the ABLE Act, the reauthorization of the health coverage tax 
credit, the Protecting Americans from Tax Hike.
    All of these were unfunded, layered on top of an agency 
that has been losing staff. We have, I think, a third less than 
we had 20 years ago.
    But one of the things we still have is the computer system. 
In fact, we have had testimony before this Committee that the 
systems go--Fortran. I mean, we are talking about people in the 
1970s. They have difficulty in some instances getting people 
knowledgeable to fix and operate the computers because they are 
so out of date.
    That is the real challenge we are going to watch, we are 
going to unleash, if my Republican friends pass this tax bill, 
which everybody is still trying to find out what is in it.
    I loved finding out this weekend that people who make 
between $550,000 and $650,000 might be facing an effective 
marginal tax rate of 107 percent. I didn't hear about that in 
our march through the fact that people who earn their income 
from wages and salaries are going to be paying a higher rate 
than people who can recharacterize their income for the first 
time in our history.
    So we are about to give a beleaguered IRS, outmoded, ill-
equipped, with few new people that are there, and these 
artificial constraints, we are about to give them more mandates 
in terms of how you are going to have guardrails to deal with 
pass-through income.
    Mr. Chairman, at some point we have to acknowledge what we 
have done to the agency. And I hope everybody spends time 
meeting with the people who work there who want to do a good 
job.
    Cutting back on enforcement that gives us $6 for each 
dollar that comes in, no business that you had would operate 
that way, and we shouldn't operate our accounts receivable this 
way.
    Thank you for your patience.
    Chairman BUCHANAN. Let me just say to the gentleman that is 
why we want to do IRS reform on a bipartisan basis. I am 
committed to that because I agree with you: there are a lot of 
issues that have to be dealt with. Technology is at the top of 
the list.
    With that, I recognize the gentleman from Michigan, Mr. 
Bishop.
    Mr. BISHOP. Thank you, Mr. Chairman.
    And thank you to the panel today for your time and for all 
your dedication to the demographic that you represent. All of 
us here represent a good number of families and individuals. On 
a daily basis, we are deluged by issues, concerns. And I have 
to say that IRS issues are high on the list of issues that come 
to my office and that our dedicated staff works on and that I 
work on a daily basis. And each of us has a story to tell, many 
of them horror stories, and they are not few and far between. 
Unfortunately, there are several of them out there, and they 
come to us almost daily.
    Mrs. Walorski mentioned some in her district, and Mr. 
Meehan did the same. I won't do that because there are too many 
to talk about. But I will say that one of the things that I am 
very proud of with this Committee is the fact that we have 
taken on tax reform. And the issues that have really vexed my 
constituents, as Mr. Meehan said, one of the biggest issues is 
how complicated this IRS Code is and the 70,000 pages of 
convoluted rules and regulations that have made life miserable 
for folks. That period of time between January 1 and April 15 
is a horror story for many families and many businesses, and 
even worse if they get audited thereafter. So anything we can 
do to simplify I would support and have supported. I think this 
will be a great bit of relief to families and to businesses.
    I also have to say that the amount of relief that we are 
giving in the form of tax rate is substantial as well. And many 
of the folks in your demographic will feel that relief in many 
ways. In fact, many of them may not have tax liability at all 
under the plan that we have put forward, which I think is 
probably the best-case scenario for everybody.
    One thing that I am concerned about is, in your 
demographic, for those of lower income, are folks that are able 
to respond to IRS audits. Can you tell me--in your 
organizations and all of your very worthy, noble organizations, 
can you tell me if you provide audit services for your 
clientele? And if so, to what extent? I guess let me start here 
with the AARP because that is one area that I know that I hear 
the most from, the older population.
    Ms. LEE-VILLANUEVA. The low-income population, yes. Tax-
Aide itself does not provide audit services. Under the 
volunteer programs within the IRS, it is the taxpayer's 
responsibility so we ensure that we make sure that the 
taxpayers understand that this is their return and that they 
are responsible for it and for the information that is on the 
return. So we might talk to them when they get the letter; they 
usually do contact us. But we do not go with them to actually 
intervene with the audit.
    Mr. BISHOP. Okay. So you don't represent them in the audit?
    Ms. LEE-VILLANUEVA. No, we do not.
    Ms. RON. I would say we provide a program similarly. We do 
not--what we aim to do is partner up with LITC and other 
partners to help with those things.
    Ms. LESTER. Yes, we actually do work with taxpayers who are 
going through an audit or an examination with the IRS. The vast 
majority of our clients are dealing with correspondence audits. 
So, again, the IRS is sending them a letter saying that they 
are questioning or looking into particular credits or 
deductions they have taken on their return. And so, once they 
contact us, we like to step in and walk through that process 
with them. The earlier they come to us, the better, obviously, 
because we have more remedies that we can explore. The problem 
is that a lot of times just because of our population, they are 
kind of transient in nature. They may not open notices. And so 
a lot of times, when they come to us, they are much further 
along in the process. But for those taxpayers who do come to us 
while they are still in the audit phase or examination phase, 
we are able to work with them to pull documentation together. 
We might write a memorandum in support of their position. If it 
goes to appeals, we request face-to-face hearings with appeals 
with the Atlanta field office, or we work over the telephone to 
work through those issues with them.
    Mr. BISHOP. Thank you.
    Ms. MACMILLAN. As I think you know, at Enrolled Agent, our 
license is for representing taxpayers so that is one of the 
bread-and-butter areas, is postfiling correspondence. I 
personally do an awful lot of individual audits.
    Mr. BISHOP. Can you give me an idea of the demographic that 
you represent? How many of them percentage-wise would face an 
audit as a result of their tax return?
    Ms. MACMILLAN. In my practice, about half, maybe more than 
half are field audits, and that is just because I advertise or 
I put myself out there as enjoying doing field audits for 
taxpayers and office audits. The majority of what I see are 
these correspondence audits or, more often, the matching 
program, the CP-2000s, and those are--those have their own set 
of issues because they are computer-generated audits that are 
not being handled by a human being in any way, shape, or form.
    Mr. BISHOP. Thank you very much.
    Mr. Chairman, I yield back.
    Chairman BUCHANAN. Thank you.
    I now recognize the gentleman from Arizona, Mr. Schweikert.
    Mr. SCHWEIKERT. Thank you, Mr. Chairman.
    This is one of those moments where I am going to throw a 
number of things at you, and I am begging for even Minority 
staff and others to sort of participate.
    First, to our witness from AARP, we love you in Arizona. As 
a congressional office, we have had terrific experiences 
coordinating and working with some of your staff.
    I am probably a very ill man. For years, I used to help 
people, even in my neighborhood, do their taxes. So they would 
come, they would bring me things to eat, and I would sit and do 
their taxes for them, which is sort of absurd that I ended up 
on this Committee because I still do my own. And even this 
week, I got letters from the IRS, I owed--they sent me a letter 
saying, ``You owe $10.47'' and then they sent my wife one, 
which we filed jointly. And that is absurd why they would 
duplicate those.
    So let me throw a series of things at you. Ms. Ron, a lot 
of your population is getting the earned income tax credit. And 
in today's world, there is a delay on that as a fraud 
prevention. I could come to you right now and say: If we could 
get the IRS to actually use outside databases--so someone comes 
in, boom, bounce it off the outside database; we know the data 
says this is the range of income--we could actually get rid of 
that delay, send them their resources immediately.
    Ms. Lester, when you actually sit someone down--and, look, 
they are asking for documentation. The fact of the matter is, 
we all have these. There is a simple technology where you take 
a picture of the 1099--and instantly, that could have been how 
you file the document that was asked for instead of having to 
find a photocopier, put it in an envelope, mail it. Boom, you 
could have done it instantly.
    In today's world, we should have the ability to have a 
biometric login to actually see your tax filing. You could run 
it on a distributive ledger so you know it is absolutely safe 
and secure and not subject to fraud.
    There are technological solutions that the rest of the 
world is using, even some of the new--and I know I am 
rambling--but if any of you have ever had to call Amazon or 
others and the person you are talking to is actually a computer 
that is using the voice recognition and walking you through, 
they are saying, ``No, you need to do this, do that, do that, 
do this,'' instead of this chaos of thinking we are going to 
have phone banks of people who are ready to deal with issues-- 
please help me: Where are--am I wrong that we have missed a 
generation because the IRS is still--its base database predates 
President Kennedy. And this is the world we are dealing with.
    Ms. MACMILLAN. Yes. Definitely many of the systems and even 
the thought process at the IRS is really antiquated. We are 
encouraging e-services--not e-services--E-Signature legislation 
that I think Congressman Rice has authored.
    Mr. SCHWEIKERT. And I mean this with much love to the 
Congressman: E-Signature needs to be a thumbprint.
    Ms. MACMILLAN. That would work too. There are third-party 
providers who can provide that.
    Mr. SCHWEIKERT. I understand that, but even those are 
coding from 10 years ago.
    Ms. MACMILLAN. Yeah, that would be--anything they could do 
to improve the technology. We have also suggested having us be 
able to upload PDFs and have them actually see them, and they 
can't do that yet. So there is a definite lag in the electronic 
advancement of services with the IRS that--and I assume it is a 
funding issue.
    Mr. SCHWEIKERT. But, Ms. Lester, when you are actually 
sitting with someone of modest income and you are helping them 
do their taxes, what is the software you are using?
    Ms. MACMILLAN. I use Lacerte.
    Ms. LESTER. In terms of----
    Mr. SCHWEIKERT. I mean, are you actually using the IRS's? 
What are you filling out on your computer screen? What is the 
software? Because I know, at AARP, you use----
    Ms. LEE-VILLANUEVA. We use the IRS-provided software, which 
is TaxSlayer.
    Ms. RON. Correct. Provided--it is also TaxSlayer.
    Ms. LESTER. For us, we are dealing with controversies, so a 
lot of times we are having to draft letters and memorandum.
    Mr. SCHWEIKERT. So you are doing more triage.
    Ms. LESTER. Exactly.
    Mr. SCHWEIKERT. Don't you love the idea of being able to 
take a picture of the document?
    Ms. LESTER. That would make our lives so much easier.
    Mr. SCHWEIKERT. Having actually looked at some of this and 
I have actually tried to reach out to some of the providers, 
why it is just not more graphical, where you could sit someone 
down, and they can do this, say, and put in the number. It is 
archaic where we are at. Maybe I am living in a techno-utopian 
world, but I am hoping if we are actually really close to doing 
something, it is simpler. That is our generational inflection 
to actually now fix the way we do our data systems where we 
interact with the public that we are asking to pay these taxes.
    With that, I yield back, Mr. Chairman.
    Chairman BUCHANAN. Thank you. I now recognize the gentleman 
from South Carolina, Mr. Rice.
    Mr. RICE. I want to thank you for what you do in helping 
people comply with the tax law. It certainly--it is a burden to 
the average person, and it is an awful shame that it is that 
way, that we have to have such an army of folks to help them 
comply with this law. And I know you two on the end there do it 
for free. So thank you for what you do. Thank you for keeping 
people out of trouble. Thank you for keeping our government 
running more smoothly.
    I have to ask you, Ms. Ron, and Ms. Lee-Villanueva, what 
percentage--have you all looked at what percentage of your 
clients are itemizing? I would assume it was pretty low if they 
are pretty low-income folks, right? Have you looked at that and 
if this doubling of the standard deduction is in fact going to 
eliminate a lot of that and make it simpler for folks?
    Ms. LEE-VILLANUEVA. I don't have the actual percentage with 
me right now. I could get that for you and get back to you, if 
you would like. But we do see a lower number of people who 
itemize just because of the clientele we serve.
    Mr. RICE. Would you say less than 10 percent?
    Ms. LEE-VILLANUEVA. Probably about 15 percent would be my 
guess. But I would need to double-check that.
    Mr. RICE. What would you expect? Have you all run any 
numbers? What would you expect the effect of doubling the 
standard deduction would be on the number?
    Ms. LEE-VILLANUEVA. I expect it to decrease the number of 
people who need to itemize.
    Mr. RICE. And isn't that--the itemization, isn't that one 
of the more complicated areas in terms of preparing somebody's 
tax return?
    Ms. LEE-VILLANUEVA. Well, the clientele we see, it is 
really just the stress of filing their tax return. And the 
reason they come to us, they might have a very simple, 
straightforward concern, but they are just more comfortable 
being able to have somebody sit down and for them to make sure 
that it is done correctly. We do see also a large population, 
of course, of the 60-plus. It might be a lot of people who have 
never had to file their own return, but because of their 
current situation, the loss of the partner, the spousal 
partner, that might have been filing it, they are in a 
situation now that they have never been in, so they just----
    Mr. RICE. On the income side, you usually get a 1099 or a 
W-2 or something like that that you can use to fill that out. 
But the deductions and keeping track of all that and making 
sure it gets to the right--it seems to me like that would be 
the most complicated area generally for filling out tax returns 
for lower-income folks. And it seems to me like doubling the 
standard deduction will make it a lot simpler for folks.
    Ms. LEE-VILLANUEVA. It should make it simpler, yes.
    Mr. RICE. Ms. Ron, would you agree with that?
    Ms. RON. Not necessarily. I would say for the VITA 
population, if I could take a guess, I would say less than 10 
percent itemize their deductions right now and with potential--
--
    Mr. RICE. Would you think this doubling of the standard 
deduction, do you think it would make it more or less people 
that would itemize?
    Ms. RON. Would you say that one more time?
    Mr. RICE. Okay. The doubling of the standard deduction, 
wouldn't you think that would diminish the number of people who 
itemize?
    Ms. RON. It might. But since it is less than 10 percent of 
ours that itemize now, I don't know how much of an impact that 
would have.
    Mr. RICE. So what is the most complicated area that you 
have?
    Ms. RON. The most complicated--well, for us, it is dealing 
with amendments, and it has more to do with people having their 
taxes prepared by folks who make errors, for example. The other 
one I would say is for----
    Mr. RICE. You don't do direct tax preparation----
    Ms. RON. We do, we do. But a lot of people come referred 
because they need amendments.
    Mr. RICE [continuing]. Preparation. What would be the more 
complicated area that you deal with when you are preparing--
people on the low-income side, right?
    Ms. RON. Yes.
    Mr. RICE. Those making $50,000 or less. What generally 
complicates their tax returns?
    Ms. RON. I would say it is probably the self-employed 
folks. And for them, they would still need to be able to track 
their expenses and deductions and all that just on the 
financial management side. So I don't know how much of an 
impact it would have on them.
    Mr. RICE. You say you do a lot of earned income tax credit 
and child tax credit.
    Ms. RON. Yes.
    Mr. RICE. We had the State Attorneys General or State 
Innovation Group in here last week talking about those credits. 
And they were telling us that about 30 percent of those are 
fraud. What do you all do to ensure that, when you file the 
return, they are accurate, and they are not fraudulent?
    Ms. RON. Sure. We do a lot to prevent that. For us, 
remember for VITA sites, we are looking for 90 percent 
accuracy, so it is a different world in a way. So, for us, I 
would begin with----
    Mr. RICE. You ride down the road and you see these signs on 
the side of the road ``taxes prepared here, earned income tax 
credit,'' and I wonder about that. So what do you all do to 
ensure that it is not fraudulent?
    Ms. RON. I had a little trouble hearing over the coughing. 
So, for us, the major thing is the training of the volunteers. 
Training of the volunteers, and at sites, there is a lot of 
operational detail that goes on. People, for example, have to 
have--have to bring physical Social Security cards. If you are 
a married couple, you both have to be there to sign documents. 
There are a lot of requirements on our end to make sure that we 
prevent those kinds of issues.
    Chairman BUCHANAN. Thank you. Let me first thank all of you 
for coming today. I want to especially thank all of our 
volunteers. I know in my community, in Sarasota, Florida, we 
have a lot of volunteers with a lot of great organizations. 
Without them, you wouldn't have the organizations. So I just 
want to applaud what you are doing.
    I want to do kind of a quick--we are trying to do IRS 
reform on a bipartisan basis, but I would like to do--you might 
have heard--like a lightening round, so I want you to be kind 
of concise, and then also I would like to have you give me 
whatever input to our Committee on three things I want to bring 
up to you today because I need your help on it.
    First, assuming we get tax reform done, which it looks like 
might happen before the end of the year, I am interested, what 
are your two or three biggest concerns in terms of 
implementation that we need to address quickly? I mean, they 
have already talked about 500--I think it was $500 million in 
terms of dollars available, but I would like to get your 
thoughts and your concerns.
    If you have a quick comment you want to make that you think 
would be at the top of the list in terms of this because it is 
happening at the end of the year. I am expecting it is going to 
get done, but I am interested in hearing any thoughts that you 
might have. We will start quickly with you and just be concise 
on this point.
    Ms. MACMILLAN. I think one of the big issues is going to be 
that the IRS does need to implement this, and there is going to 
be a lot of time spent bringing it up. I think it did create 
simplification for lower-income or less complicated taxpayers, 
and there is just way more to be done.
    Chairman BUCHANAN. Ms. Lester, I just want everybody to be 
fairly quick because I want you to get back to me because I 
have a couple more questions. Go ahead.
    Ms. LESTER. I think the key thing will be training to make 
sure that the IRS personnel understand what the changes are, 
understanding that different tax years will have different 
requirements. And so, when looking at past controversies or 
past years, they may have one set of requirements or one set of 
laws whereas the current year may have different ones so that 
could complicate matters.
    Chairman BUCHANAN. Ms. Ron, do you have anything?
    Ms. RON. I would say, from our perspective, potentially it 
is more the impact on charitable giving, which we are 
estimating could be a reduction in of 5 or 10 percent.
    Chairman BUCHANAN. Ms. Lee-Villanueva.
    Ms. LEE-VILLANUEVA. The IRS readiness is the top concern 
that we would have, making sure that they are ready to 
implement the change, have the time in place to be able to 
educate and let taxpayers know what the changes are.
    Chairman BUCHANAN. The second question I have is on dispute 
resolution. I am concerned when I read in the paper, USA Today, 
62 percent of Americans don't have $1,000 in the bank. They are 
probably a lot of folks that you work with. So when someone 
gets something where they might be self-employed and, all of a 
sudden, they owe $3,000 to $5,000, what is your sense of how 
quickly that can get addressed because it is very easy to go to 
a CPA or somebody else and run up a $4,000 bill on a $4,000 to 
$5,000 issue? Is that commonplace? And is our dispute 
resolution, does that work at all, or is that a disaster?
    Ms. MACMILLAN. It is quite common when assessments are 
incorrect and with the fact that the taxpayer can't reach 
someone to quickly resolve it. Also, there is no opportunity 
for a taxpayer to go to appeals until the very end of the 
process. And we believe that appeals should be available 
earlier in the process.
    Chairman BUCHANAN. What happens when someone in the real 
world gets a bill for $3,000 to $5,000, pick a number, $2,000 
to $6,000 or something, you know, they have to go through a 
process. You are usually talking some professional. Now you are 
talking a couple grand. It seems like that has to be an area 
that we have to find a way that we can work on.
    Ms. MACMILLAN. I completely agree. And I did want to say at 
some point today that I am constantly amazed every time I have 
a successful resolution on one of these things for my 
taxpayers. I think to myself: What would somebody do if they 
didn't have me, if they didn't have the resources to hire 
someone or they couldn't even find someone?
    Chairman BUCHANAN. I am just worried about them being able 
to pay the bill.
    Anybody else on that quickly? Ms. Ron or Ms. Lester.
    Ms. RON. I would say, from the population that VITA serves, 
we are looking at people who literally sometimes leave the VITA 
site because they saved $150.00 on tax prep fees. So, if they 
do that for $150, things that are very commonly in the 
thousands are detrimental to their entire family.
    Chairman BUCHANAN. If they get a letter from the IRS, are 
you able to help them, walk them through that, maybe get it 
resolved fairly quickly, inexpensively? Is that the idea? I am 
just trying to understand it.
    Ms. RON. So, for us, we work with our partners who will 
help them navigate that system because, for most of them, they 
have no idea where to even start.
    Chairman BUCHANAN. My last question, just quickly, is on 
the taxpayer bill of rights. Is that something that, I am sure 
you're familiar with it, but is it something where the 
volunteers are being trained or educated on the taxpayer bill 
of rights because I am sure a lot of taxpayers are not looking 
at that every day--are the volunteers on behalf of the IRS, is 
there proper training and education so people understand their 
rights according to the taxpayer's bill of rights? Anybody?
    Ms. LESTER. Absolutely. From our perspective, our 
volunteers are really students and so we do a great deal of 
training, explaining to students what the taxpayer bill of 
rights means and what the rights are. We also do education and 
outreach, which is part of our mission in the LITC community, 
doing education and outreach to try to explain to a taxpayer 
what those rights and responsibilities mean.
    Chairman BUCHANAN. Anybody else, quickly?
    Ms. LEE-VILLANUEVA. I would say that from--we do not 
actually educate on the bill of rights, but a lot of what the 
program and how the program is implemented is directly related 
to the bill of rights and that we do the quality of service. So 
a lot of it is written into the way the volunteer programs are 
administered and created.
    Chairman BUCHANAN. It would be helpful to me on any of 
those three issues if you have some followup, if you could get 
it to the Subcommittee, I would be interested in taking a look 
at your experience because you are in the field and dealing 
with this every day. It would be very helpful on these three 
issues.
    I would like to thank our witnesses for appearing before us 
today. It has been very productive. Thank you. Please be 
advised that Members have 2 weeks to submit written questions 
to be answered later in writing. Those questions and your 
answers will be made part of the formal hearing record.
    With that, the Subcommittee stands adjourned.
    [Whereupon, at 11:25 a.m., the Subcommittee was adjourned.]
    [Submissions for the Record follow:]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre></body></html>
